                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

                   ~Ob@w
             $07
Case Number:-4+WH&W
                                                                             I           Page 1 of 1



    This investigation was initiated based on a proactive review of NSF awardees that used funds
    after the award expiration date. In furtherance of the inquiry, we detected that the general ledgers
    of an institution' showed numerous awards2with expenses after the expiration date.
    Subsequently, we received documentation from the institution that showed the expenses were
    appropriate and used prior to the award expiration. In light of our findings, no further action is
    warranted and this case is closed.
